No. 19-

IN THE

i§uprente Court of the Mutter( btateo
IN RE JULIUS JEROME MURPHY,
Petitioner.

On Petition for a Writ of Habeas Corpus
to the United States Court of Appeals
for the Fifth Circuit

ORIGINAL PETITION FOR WRIT OF
HABEAS CORPUS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,595 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 21, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

